Nos. 19-251 & 19-255
444444444444444444444444444444444444444444
IN THE

Supreme____________________
Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION AND
THOMAS MORE LAW CENTER, Petitioners,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA
, Respondent.
____________________
On Petitions for Writs of Certiorari to the United
States Court of Appeals for the Ninth Circuit
____________________
Brief Amicus Curiae of Free Speech Coalition, Free
Speech Defense & Education Fund, Citizens
United, Citizens United Fdn, The Presidential
Coalition, Nat’l Right to Work Comm, Nat’l Right to
Work Legal Defense Fdn, U.S. Constitutional Rights
Legal Defense Fund, Eberle Associates, Inc., Gun
Owners Fdn, Gun Owners of America, Conservative
Legal Defense and Education Fund, Patriotic
Veterans, California Constitutional Rights Fdn,
Leadership Institute, Nat’l Assn. for Gun Rights,
Nat’l Fdn. for Gun Rights, Downsize DC Fdn,
DownsizeDC.org., Public Advocate, The Senior
Citizen League, and Restoring Liberty Action
Comm in Support of Petitioners
__________________

JOSEPH W. MILLER
Fairbanks, AK 99708
Attorney for Amicus Curiae RLAC

STEPHEN C. BAILEY
Ramona, CA 92065
Attorney for Amicus Curiae CCRF

*Counsel of Record
September 25, 2019

HERBERT W. TITUS*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
I.

THE CALIFORNIA REQUIREMENT CONSTITUTES
AN IMPERMISSIBLE INTERFERENCE WITH FIRST
AMENDMENT ASSOCIATIONAL RIGHTS . . . . . . . . 8

II. THE CALIFORNIA REQUIREMENT COLLIDES
WITH THE SUPREME COURT’S FIRST
AMENDMENT PRECEDENTS GOVERNING
CHARITABLE SOLICITATIONS . . . . . . . . . . . . . . 11
III. THE CALIFORNIA REQUIREMENT IS IN DIRECT
CONFLICT WITH THIS COURT’S PRESS AND
SPEECH PRECEDENTS . . . . . . . . . . . . . . . . . . . . 15
A. Watchtower Bible and Tract Society of
New York, Inc. v. Village of Stratton . . . . 16
B. Talley v. California . . . . . . . . . . . . . . . . . . 18
C. The Historic and Enduring People’s Right
of Anonymity . . . . . . . . . . . . . . . . . . . . . . . 19

ii
IV. THE COURT OF APPEALS DISREGARDED THE
THREAT OF RETALIATION BY GOVERNMENT
OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment I . . . . . . . . . . . . . . . . . . . . . . . . 8, passim
STATUTES
Cal. Gov. Code §12591.1 . . . . . . . . . . . . . . . . . . . . . 4
CASES
Bates v. City of Little Rock, 361 U.S. 516 (1960) . 10
Citizens United v. Schneiderman, 882 F.3d
374 (2d Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . 6
First National Bank of Boston v. Bellotti,
435 U.S. 765 (1978) . . . . . . . . . . . . . . . . . . . . . 22
Lovell v. Griffin, 303 U.S. 444 (1938) . . . . . . . . . . 19
Madigan v. Telemarketing Associates, 538
U.S. 600 (2003) . . . . . . . . . . . . . . . . . . . 7, passim
Martin v. City of Struthers, 319 U.S. 141 (1943) . 21
McIntyre v. Ohio Elections Comm.,
514 U.S. 334 (1995) . . . . . . . . . . . . . . . . . . . . . 23
Miami Herald Publishing Co. v. Tornillo,
418 U.S. 241 (1974) . . . . . . . . . . . . . . . . . . . . . 22
NAACP v. Alabama ex rel. Patterson, 357 U.S.
449 (1958) . . . . . . . . . . . . . . . . . . . . . . . 7, passim
Riley v. National Federation of the Blind of
North Carolina, Inc., 487 U.S. 781
(1988) . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 13, 15
Rowan v. United States Post Office Department,
397 U.S. 728 (1970) . . . . . . . . . . . . . . . . . . . . . 22
Secretary of State of Maryland v. Joseph H.
Munson Co., 467 U.S. 947 (1984) . . . . . . . 11, 13
Talley v. California, 362 U.S. 60 (1960) . . . 8, passim

iv
Village of Schaumburg v. Citizens for a Better
Envt., 444 U.S. 620 (1980) . . . . . . . . . . . . 11, 13
Watchtower Bible & Tract Soc’y of N.Y., Inc. v.
Village of Stratton, 536 U.S. 150 (2002) . . 8, 16
MISCELLANEOUS
W. Blackstone, Commentaries on the Laws of
England (Univ. Chi. facsimile ed. 1769) . . . .
“Court Reaffirms CA Attorney General’s
Demand for Donor List,” Seyfarth Shaw,
LLP (Jan. 13, 2016) . . . . . . . . . . . . . . . . . . . . .
J. Gerstein, “Ex-Hassan aide sentenced to 4
years for doxing senators,” Politico
(June 19, 2019) . . . . . . . . . . . . . . . . . . . . . . . .
F.A. Monti, “What Kind of Watchdog? The
Role of the State Attorney General in
Nonprofit Oversight,” Inside Philanthropy
(July 28, 2015) . . . . . . . . . . . . . . . . . . . . . . . . .
J. Wick, “Newsletter: The state of California
vs. Trump, again,” Los Angeles Times
(Aug. 14, 2019) . . . . . . . . . . . . . . . . . . . . . . . .

20
25
27

26
26

INTEREST OF THE AMICI CURIAE1
Free Speech Coalition, Citizens United, National
Right to Work Committee, Gun Owners of America,
Inc., Patriotic Veterans, National Association for Gun
Rights, Public Advocate of the United States, The
Senior Citizens League, and DownsizeDC.org, are
nonprofit social welfare organizations, exempt from
federal income tax under Internal Revenue Code
(“IRC”) §501(c)(4). Free Speech Defense and Education
Fund, Citizens United Foundation, National Right to
Work Legal Defense Foundation, U.S. Constitutional
Rights Legal Defense Fund, Gun Owners Foundation,
Conservative Legal Defense and Education Fund,
California Constitutional Rights Foundation, The
Leadership Institute, National Foundation for Gun
Rights, and Downsize DC Foundation are nonprofit
educational and legal aid organizations, exempt under
IRC §501(c)(3). The Presidential Coalition, LLC is an
IRC §527 organization. Eberle Associates, Inc. is a forprofit corporation.
Restoring Liberty Action
Committee is an educational organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes

1

It is hereby certified that counsel for all parties have consented
to the filing of this brief; that counsel of record for all parties
received notice of the intention to file this brief at least 10 days
prior to its filing; that no counsel for a party authored this brief in
whole or in part; and that no person other than these amici curiae,
their members, or their counsel made a monetary contribution to
its preparation or submission.

2
related to the rights of citizens, and questions related
to human and civil rights secured by law. Several of
these amici have filed amicus briefs in this and other
related cases, including:
• AFPF v. Harris, Nos. 15-55446 & 15-55911,
Ninth Circuit, Brief Amicus Curiae in Support
of Petition for Rehearing En Banc (January 21,
2016);
• Citizens United v. Schneiderman, No. 16-3310,
Second Circuit, Brief Amicus Curiae in Support
of Appellants and Reversal (January 13, 2017);
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
Ninth Circuit, Brief Amicus Curiae in Support
of Plaintiff-Appellee and Affirmance (January
27, 2017);
• Institute for Free Speech v. Becerra, No. 1717403, Ninth Circuit, Brief Amicus Curiae in
Support of Plaintiff-Appellant and Reversal
(March 16, 2018); and
• AFPF v. Becerra, Nos. 16-55727 & 16-55786,
Ninth Circuit, Brief Amicus Curiae in Support
of Petition for Rehearing En Banc (October 5,
2018).
STATEMENT
California, like about 40 other states and the
District of Columbia,2 imposes a prior restraint on
some types of nonprofit organizations seeking to
communicate with state residents in order to educate

2

See www.multistatefiling.org/n_appendix.htm.

3
and to raise funds for their programs.3 These “State
Charitable Solicitation Acts” (“CSAs”) require
nonprofit organizations — and often the for-profit
firms which help them fundraise — to comply with
myriad requirements imposed not just by statute and
regulations, but sometimes by the instructions for the
forms that must be filed, and even via practices
informally adopted by different states.
These regulatory schemes generally first require
registration with the state by filing an application
supported by certain attachments, enclosures,
certifications, and payment of registration fees.4
Usually, once filed, the documents become public.
Once registered, the nonprofit is allowed to inform that
state’s residents about issues and programs, and solicit
contributions. Thereafter, registrants must continue
to file additional reports and pay a renewal fee —
generally on an annual basis, but many states also
require amendments to be filed 30 days after any

3

The Ninth Circuit broadly describes the role of the Attorney
General under this statute to be “policing charitable fraud.” See
Americans for Prosperity Foundation v. Becerra, 903 F.3d 1000,
1004 (9th Cir. 2018) (“AFPF”). Under such a theory, the general
affairs of every nonprofit mailing nationally would be accountable
to the Attorneys General of every state into which its mail is
directed, not just those jurisdictions where it is domiciled or
maintains a physical presence.
4

Some states require multiple signatures and notarized
signatures on forms, requiring that these forms be physically sent
around the country to obtain the required signatures before filing.

4
change in the material previously filed.5 Failure to do
so may be punished by substantial civil fines and
injunctive relief including prohibition from continuing
to mail to, and solicit funds from, residents of the
state.6
Although some nonprofits and fundraisers develop
the expertise in-house to comply with the changing
requirements imposed by the states, many firms across
the country offer compliance services.
For
organizations seeking to raise funds on a nationwide
basis, the fees and costs expended in complying with
these laws can run $12,000 or more annually.7 Even
worse, these redundant disclosures of information
impose an enormous compliance burden while doing
the public no good, only providing the rationale for
supplying a lucrative revenue stream for state
governments, and a regulatory hook to control
nonprofits.
State CSAs impose a particular burden on new
organizations seeking to do test mailings or to begin a

5

Although there has been an effort to develop a “uniform
registration statement” to standardize registration and reporting,
states that have joined that effort make it more complicated by
imposing additional state-specific requirements. See The Unified
Registration Statement.
6

Penalties can range from $1,000 “per act or omission,” to
$10,000 for violations “with intent to deceive or defraud....” Cal.
Gov. Code §12591.1(a) and (c).

7

These costs reduce the amount of funds raised that can be spent
for exempt function activities.

5
direct mail fundraising program to determine whether
there is sufficient support for their cause to raise funds
in the mail. The threshold cost of many thousands of
dollars imposed on top of printing and postage
discourages new entrants from entering the
marketplace of ideas. However, well-established and
well-known charities can become comfortable with the
burdens imposed on nonprofits, because they have the
expertise and resources to comply no matter what the
rules may be. Established charities may even favor
more complex and expensive systems, as they impose
a significant “barrier to entry” for new competing
nonprofits.
In some states, such as California, state attorneys
general that enjoy broad law enforcement powers
administer these laws. CSA enforcement can be quite
arbitrary, lending itself to political abuse, opening
targeted nonprofits to large enforcement defense costs
and civil penalties. The very complexity and the
fluidity of these laws lend themselves to violations,
allowing states to find technical violations whenever
convenient, against whomever convenient. Defending
against enforcement actions by states can be
prohibitively expensive, and attorneys general are
often motivated to generate negative publicity against
certain nonprofits while gaining positive publicity for
themselves.
Although this Court has rendered a handful of
decisions which limit the types of burdens which
governments can impose, including what is known as
“the Village of Schaumburg trilogy,” no broad
challenge to the authority of states to impose this type

6
of licensing scheme has yet come to this Court. Many
nonprofits believe the entire state CSA scheme of
registration and reporting is unconstitutional.
Nevertheless, nonprofits and fundraisers have abided
with these administrative schemes as the path of least
resistance, so that they may be allowed to pursue the
activities for which they were organized rather than
incur the enormous cost of bringing a constitutional
challenge. Generally, states face resistance only when
new and particularly crippling restrictions are added
to the baseline compliance burden. Here, resistance
arose to the demand by California state officials for
detailed information on these nonprofits’ largest
donors — the very lifeblood of each nonprofit
organization,
Thus far, only two states enforce demands for
nonprofits to file an unredacted Schedule B —
California and New York.8 Unsurprisingly, these are
the two states with the most political and litigious
state attorneys general in the country.
SUMMARY OF ARGUMENT
The Americans For Prosperity Foundation
(“AFPF”) and Thomas More Law Center petitions
challenge the Ninth Circuit decision approving the
California Attorney General’s decision to compel those
two organizations to disclose the names and addresses
of their largest donors, and the dates and amounts of
8

The New York requirement led to a challenge brought by
Citizens United. See Citizens United v. Schneiderman, 882 F.3d
374 (2d Cir. 2018).

7
their donations, as a precondition to charitable
solicitation in the state. These challenges are based
primarily on a violation of the freedom of association.
These amici agree that a valid “as applied” challenge
was presented, demonstrating herein how the Ninth
Circuit misread and erroneously distinguished NAACP
v. Alabama ex rel. Patterson, 357 U.S. 449 (1958),
while ignoring numerous district court findings of fact
in the process. See Section I, infra.
However, these amici believe that States should
not impose such disclosure requirements on any
nonprofit organizations. Nor should courts evaluate
such requirements through the use of any “interest
balancing test,” or any “standard of review” — whether
it be “exacting scrutiny” or “strict scrutiny” — because
three well-established legal principles obviate the need
for any “as applied” showing.
First, Petitioner Thomas More correctly asserts
that the only state interest that can justify disgorging
highly sensitive donor information from a nonprofit is
a concrete demonstration of fraud by a specific
organization. Thomas More Pet. at 13-14, 27-19.
Indeed, this Court evaluated and rejected the state’s
use of a broad prophylactic approach to rooting out
fraud when it decided the Village of Schaumburg
trilogy, followed by its decision in Madigan v.
Telemarketing Associates, 538 U.S. 600 (2003).
Faithful application of the Madigan decision bars the
Attorney General’s blanket prophylactic rule. See
Section II, infra.

8
Second, these amici agree with Petitioner AFPF
that Americans have the right to support causes
anonymously under the constitutional principles
recognized in Watchtower Bible & Tract Soc’y of N.Y.,
Inc. v. Village of Stratton, 536 U.S. 150 (2002) and
Talley v. California, 362 U.S. 60 (1960). Indeed, the
doctrine of anonymity has ancient roots, and has been
invoked regularly by this Court for 80 years, to protect
the people from government overreach. See Section
III, infra.
Lastly, these amici believe that the petitioners
were not required to show that the confidential donor
information being demanded will be at risk of public
disclosure, because the historical principle of
anonymity protects against disclosure to the state as
vigorously as from disclosure to the public. Indeed, the
need for this Court to faithfully apply the principle of
anonymity has only increased with the politicization of
law enforcement and the weaponization of the
administrative state. See Section IV, infra.
ARGUMENT
I.

THE
CALIFORNIA
REQUIREMENT
CONSTITUTES AN IMPERMISSIBLE
INTERFERENCE
WITH
FIRST
AMENDMENT ASSOCIATIONAL RIGHTS.

The main argument of both petitions is the claim
that forced disclosure of detailed information about
petitioners’ major donors violated the First
Amendment freedom of “the people peaceably to
assemble,” expressed in this context as the freedom of

9
association, and the closely related freedom of speech.
The question presented by AFPF specifically relied on
NAACP v. Alabama and its progeny, and those
authorities also were repeatedly relied on throughout
the Thomas More petition.
NAACP v. Alabama involved a court order
requiring the production of documents, including
membership lists, on the grounds that the NAACP
failed to comply with Alabama’s requirement to
register as a foreign corporation.9 After discussing
NAACP’s speech, press, due process, and associational
rights, this Court protected the NAACP from being
compelled to provide those lists.
Effective advocacy of both public and
private points of view, particularly
controversial ones, is undeniably enhanced by
group association, as this Court has more than
once recognized by remarking upon the close
nexus between the freedoms of speech and
assembly....
It is hardly a novel perception that
compelled disclosure of affiliation with groups
engaged in advocacy may constitute [an]
effective ... restraint on freedom of
association....
Inviolability of privacy in group association
may in many circumstances be indispensable
9

Arguably, a nonprofit such as NAACP would have less authority
on which to refuse to comply with a court order based on a
demonstrated violation of law than against a blanket disclosure
requirement imposed on all nonprofits.

10
to preservation of freedom of association,
particularly where a group espouses dissident
beliefs. [NAACP v. Alabama at 460-462.]
The court of appeals opinion below contains only
one brief citation to NAACP v. Alabama and a
footnote, designed to give the impression that the
NAACP faced threats of “economic reprisal, loss of
employment, [and] threat of physical coercion....”
(AFPF at 1014 and 1014 n.5) unlike the situation faced
by petitioners. The Ninth Circuit added what it
thought to be a distinguishing parenthetical that
“(between 100 and 150 members declined to renew
their NAACP membership, citing disclosure concerns)”
drawn from the later case of Bates v. City of Little
Rock, 361 U.S. 516, 521 n.5 (1960). Actually, those
statistics were admitted to be highly speculative
(based on testimony prefaced by “I guess”), and in fact
played no part in the NAACP v. Alabama decision.
The district court made numerous findings of fact
much more serious than the failure to renew
membership.10 See AFPF v. Harris, 182 F. Supp. 3d
1049, 1055-56 (C.D. Cal. 2016). The district court
below described a long line of “threats, protests,
boycotts, reprisals, and harassment” directed at those
“publically associated with AFP,” concluding that even
if the threats were not as violent as in NAACP, “this
Court is not prepared to wait until an AFP opponent

10

The Ninth Circuit stated that it “‘reviews the district court’s
findings of fact for clear error....’” (AFPF at 1007), but its opinion
rewrites those facts to support its decision.

11
carries out one of the numerous death threats made
against its members.” Id. at 1056.
II. THE
CALIFORNIA
REQUIREMENT
COLLIDES WITH THE SUPREME COURT’S
FIRST AMENDMENT PRECEDENTS
GOVERNING
CHARITABLE
SOLICITATIONS.
Between 1980 and 2003, this Court addressed four
times the constitutionality of government actions
affecting charitable solicitations under the First
Amendment.11 On three of those occasions, the Court
found that those legislative efforts — all purportedly
designed to prevent fraud — were unconstitutional.
As Petitioner Thomas More points out, this Court “has
long safeguarded nonprofit solicitations as speech.”
Thomas More Pet. at 18. Additionally, Thomas More
states “broad prophylactic rules are inherently suspect
under the First Amendment.” Id. at 20. Not
surprisingly, of the four constraints on charitable
solicitation, only one survived constitutional scrutiny
— Madigan v. Telemarketing Associates. In that case,
the Court allowed the Illinois Attorney General to
bring a common law fraud action against a “for-profit
fundraising corporation[] ... for fraudulent charitable
solicitations,” based upon “intentionally misleading
statements designed to deceive the listener” as to the

11

Village of Schaumburg v. Citizens for a Better Envt., 444 U.S.
620 (1980); Secretary of State of Maryland v. Joseph H. Munson
Co., 467 U.S. 947 (1984); Riley v. National Federation of the Blind
of North Carolina, Inc., 487 U.S. 781 (1988); and Madigan v.
Telemarketing Associates.

12
“percentage of charitable donations [they] retain for
themselves.” Madigan at 605-06. But, the Court
pointedly emphasized, the “bare failure to disclose that
information directly to potential donors does not
suffice to establish fraud.” Id. at 606.
Distinguishing the three previous charitable
solicitation cases in which the Court had “invalidated
state or local laws,” the Court in Madigan explained
that those laws “categorically restrained solicitation by
charities or professional fundraisers if a high
percentage of the funds raised would be used to cover
administrative or fundraising costs.” Id. at 610. In
contrast, the Court continued, “unlike Schaumburg,
Munson, and Riley, [this case] involves no
prophylactic provision proscribing any charitable
solicitation if fundraising costs exceeded a prescribed
limit”:
Instead, the Attorney General sought to
enforce the State’s generally applicable
antifraud laws against Telemarketers for
“specific instances of deliberate deception.”
[Id. at 610 (emphasis added).]
Unlike the Attorney General of Illinois in
Madigan, the Attorney General of California has
chosen to exercise his “broad powers” to require
production of donor information on the IRS Schedule
B, expanding the prophylactic reach of the California
Trustees and Fundraisers for Charitable Purposes Act
— purportedly “solely to prevent charitable fraud.”
AFPF at 1004. Although “the First Amendment does
not shield fraud” (Madigan at 612), it does shield

13
charitable solicitors from “‘unduly burdensome’
prophylactic rule[s] [that are] unnecessary to achieve
the State’s goal of preventing donors from being
misled.” Id. at 616.
To guard against this government overreach, the
Madigan Court summarized its opinions in
Schaumburg, Munson, and Riley as having taken “care
to leave a corridor open for fraud actions to guard the
public against false or misleading charitable
solicitations.” Madigan at 617 (emphasis added). To
that end, the Madigan Court spelled out a narrow
constitutional passageway, allowing for “a properly
tailored fraud action [in which] the State bears the full
burden of proof,” including proof that the solicitor
“made a false representation of a material fact
knowing that the representation was false” and that
the representation was “made ... with the intent to
mislead....” Id. at 620. Requiring an unredacted
Schedule B as a condition for permitting charitable
solicitation falls far short of this constitutional mark.
A charitable organization’s desire to protect the
identity of its donors does not suggest an intent to
deceive. And the Attorney General’s requirement of a
wholesale disclosure of the confidential donor
information is a superhighway, not a narrow pathway,
to reach the state’s purported goal of preventing
fraud.12

12

When the Attorney General does get specific, recounting a few
incidents when donor information in Schedule B has increased his
“‘investigative efficiency’” (AFPF at 1009-10), it appears that he
did not need all Schedule B donor information of all registering
solicitors, but rather “even in those five investigations, the

14
The Ninth Circuit hoped to avoid this Madigan
stricture against prior restraints by its agreement with
the claim that the state’s CSA is designed not just for
“‘making it easier to police for ... fraud,’” but also “to
‘tell [the AG] whether or not there was an illegal
activity occurring.’” AFPF at 1010-11. This claim
appears to be, at best, a make-weight for the lack of
any evidence that the mandated disclosure of the
donors’ names and addresses has anything to do with
fraud or any other specified offense.
Indeed, other than the specific interest in “fraud
prevention,” the Ninth Circuit identified only
superficial generalities, such as that Schedule B
“‘information is necessary to determine whether a
charity is actually engaged in a charitable purpose, or
is instead violating California law by engaging in selfdealing, improper loans, or other unfair business
practices.’” See id. at 1009. Not only is “improper” not
an equivalent of “illegal,” but it also embraces various
synonyms from “inappropriate” to “unsuitable” to
“indecent” to “unbecoming.” Equipped with such a
fistful of adjectives, the California Attorney General is
well-armed to shut the state’s door to a nonprofit
deemed to be undeserving.
If, as the Madigan Court has ruled, the First
Amendment allows for only a narrow passageway to
vindicate the state’s interest in “preventing fraud,” a
fortiori, the pathway to Schedule B donor information
must likewise be “narrowly tailored to the State’s
investigators were able to obtain the pertinent Schedule B
information from other sources.” AFPF Pet. at 13.

15
interest in preventing” abuses. Riley at 789. Not only
is the demand for donor information not “narrowly
tailored,” it is not tailored at all, sweeping up a
multitude of donor names to be used at the Attorney
General’s discretion, creating a real risk of public
disclosure as well.
III. THE CALIFORNIA REQUIREMENT IS IN
DIRECT CONFLICT WITH THIS COURT’S
PRESS AND SPEECH PRECEDENTS.
Before petitioners may engage in any solicitation
activity in California, it must register with the
Attorney General and, to continue such solicitation
activities, it must annually renew its license,
furnishing all requested documentation, including its
IRS Form 990 Schedule B containing the names and
addresses of large donors. By substituting the
judgment of the Attorney General for that of the
State’s householders, the California CSA denies to
petitioners the unfettered opportunity to “distribute”
their literature and denies to Californians the
unfettered opportunity to receive that literature, both
in violation of the freedom of the press.
Not only does such a regulatory scheme violate
“the First Amendment guarantee[] [of] the ‘right to
associate with others in pursuit of a wide variety of
political, social, economic, educational, religious and
cultural ends,’” as AFPF has proclaimed, but it also
violates “the right to support causes anonymously.”
AFPF Pet. at 17-18.

16
In support of its anonymity claim, AFPF cites two
of this Court’s decisions: Watchtower Bible and Tract
Society of New York, Inc. v. Village of Stratton and
Talley v. California.
A. Watchtower Bible and Tract Society of
New York, Inc. v. Village of Stratton.
The parallels between AFPF’s cause and that
addressed in Watchtower are remarkable.
• In Watchtower, a Jehovah’s Witness engaged in
door-to-door canvassing, distributing handbills
sharing his religious faith (Watchtower at 153);
AFPF is engaged in mailing letters advancing
free-market economic policies.
• Before taking his message to village residents,
the Jehovah’s Witness was required by the city
ordinance to complete and file with the mayor
a “Solicitor’s Registration Form” and obtain a
“Solicitation Permit” (id. at 155 and 115 n.2);
before soliciting Californians, AFPF is required
by the State attorney general to file annually
its IRS Form 990 Schedule B, disclosing its
major donors.
• The Stratton ordinance was designed to protect
the village’s residents from “‘flim flam’ con
artists who prey on small town populations”
and from “fraud” (id. at 158); the California
CSA was designed to “prevent charitable
fraud.” AFPF at 1004.

17
Unhesitantly, eight of nine of the justices on this
Court condemned the Village of Stratton because:
[i]t is offensive — not only to the values
protected by the First Amendment, but to the
very notion of a free society — that in the
context of everyday public discourse a citizen
must first inform the government of her
desire to speak to her neighbors and then
obtain a permit to do so. [Watchtower at 16566 (emphasis added).]
The Court did not end there.
advised:

Continuing, it

Even if the issuance of permits by the mayor’s
office is a ministerial task that is performed
promptly and at no cost to the applicant, a law
requiring a permit to engage in such speech
constitutes a dramatic departure from our
national heritage and constitutional
tradition. [Id. at 166 (emphasis added).]
Lest we forget that heritage and tradition, this Court
posed the question:
Does a municipal ordinance that requires one
to obtain a permit prior to engaging in the
door-to-door advocacy of a political cause and
to display upon demand the permit, which
contains one’s name, violate the First
Amendment protection accorded to
anonymous pamphleteering or discourse?
[Id. at 160 (emphasis added).]

18
This was followed by the answer:
On this method of communication the
ordinance imposes censorship, abuse of which
engendered the struggle in England which
eventuated in the establishment of the
doctrine of the freedom of the press.... To
require a censorship through license which
makes impossible the free and unhampered
distribution of pamphlets strikes at the heart
of the constitutional guarantees. [Id. at 162
(emphasis added).]
B. Talley v. California.
About 60 years ago, this Court ruled
unconstitutional a Los Angeles, California city
ordinance that made it a crime for any “‘person [to]
distribute any hand-bill in any place under any
circumstances, which does not have printed on the
cover, or the face thereof, the name and address of ...
[t]he person who caused the [hand-bill] to be
distributed.’” Talley v. California at 60-61. In support
of this seminal ruling, Justice Black explained:
Persecuted groups ... throughout history have
been able to criticize oppressive practices and
laws either anonymously or not at all. The
obnoxious press licensing law of England,
which was also enforced on the Colonies was
due in part to the knowledge that exposure of
the names of printers, writers and
distributors would lessen the circulation of

19
literature critical of the government. [Id.
at 64 (emphasis added).]
Given this history of government abuse, Justice
Black rejected the claims of the Talley Court
dissenters that where “there is neither allegation nor
proof that Talley ... would suffer ‘economic reprisal,
loss of employment, threat of physical coercion [or]
other manifestations of public hostility,’” there was no
First Amendment violation. Id. at 69 (Clark, J.,
dissenting). It was enough, Justice Black observed,
that “fear of reprisal might deter perfectly peaceful
discussions of public matters of importance.” Id. at 65.
C. The Historic and Enduring People’s Right
of Anonymity.
Talley was not the first time that this Court had
addressed the anonymity issue and its role in the First
Amendment’s free marketplace of ideas. Twenty-two
years before Talley, this Court decided Lovell v.
Griffin, 303 U.S. 444 (1938), striking down a city
ordinance requiring a license to “‘distribute literature
in the City of Griffin.’” Lovell at 451. Chief Justice
Charles Evans Hughes, writing for a unanimous court,
ruled the ordinance “invalid on its face”: “Whatever
the motive which induced its adoption, its character is
such that it strikes at the very foundation of the
freedom of the press by subjecting it to license and
censorship.” Id. at 451 (emphasis added). The Chief
Justice elaborated, recounting the history of the
licensed press in England:

20
The struggle for the freedom of the press was
primarily directed against the power of the
licensor. It was against that power that John
Milton directed his assault by his “Appeal for
the Liberty of Unlicensed Printing.” And the
liberty of the press became initially a right to
publish “without a license what formerly could
be published only with one.” [Id. (emphasis
added.)]
And in 1769 — 125 years after Milton read his
Areopagitica13 to the English Parliament — Sir
William Blackstone published the fourth volume of his
Commentaries, in which he penned these notable
words:
The liberty of the press is indeed essential to
the nature of a free state: but this consists in
laying no previous restraints upon
publications, and not in freedom from censure
for criminal matter when published. Every
freeman has an undoubted right to lay what
sentiments he pleases before the public:
to forbid this, is to destroy the freedom of the
press....” [4 W. Blackstone, Commentaries on
the Laws of England (Univ. Chi. facsimile ed.
1769) at 151-52 (bold added).]
In 1943, this Court decided Martin v. City of
Struthers, 319 U.S. 141 (1943) involving another city
ordinance, this one outlawing the door-to-door
13

See https://firstamendmentwatch.org/history-speaks-essayjohn-milton-areopagitica-1644/.

21
distribution of hand bills, circulars, and the like.
Challenged by a Jehovah’s Witness as a violation of
the freedom of the press, Justice Black wrote that
“[t]he right of freedom of speech and press ... embraces
the right to distribute literature [and] protects the
right to receive it.” Id. at 143.
On its face, this Court found the Struthers city
ordinance to have “substitute[d] the judgment of the
community for the judgment of [each] individual
householder,” thereby denying both distributors and
householders of their respective opportunities, the
opportunity of the Jehovah’s Witness to speak, and
that of the householders to listen. Id. at 144. But, the
city contested that its door-to-door solicitation policy
was not based on the content of the communication.
Rather, it was designed to protect the city’s residents
from “annoyance, including intrusion upon the hours
of rest, and ... the prevention of crime.” Id. The
Struthers Court replied:
“While door to door
distributors of literature may be either a nuisance or
a blind for criminal activities, they may also be useful
members of society engaged in the dissemination of
ideas in accordance with the best tradition of free
discussion.” Id. at 145. And, as this Court later put
the Struthers holding:
while supporting the “freedom to distribute
information to every citizen,” acknowledged a
limitation in terms of leaving “with the
homeowner himself” the power to decide
“whether distributors of literature may
lawfully call at a home.” [Rowan v. United

22
States Post Office Department, 397 U.S. 728,
736 (1970).]
If it were otherwise, it would be within the power of
government to censor the people, not the other way
around.
Yet that is precisely what the California CSA does,
and in so doing, unconstitutionally “intru[des] into the
function of editors”:
The choice of material to go into a newspaper
... constitute[s] the exercise of editorial control
and judgment. It has yet to be demonstrated
how governmental regulation of this crucial
process can be exercised consistent with First
Amendment guarantees of a free press14....
[Miami Herald Publishing Co. v. Tornillo, 418
U.S. 241, 258 (1974).]

14

“[Some] view the Press Clause as somehow conferring special
and extraordinary privileges or status on the ‘institutional
press....’ I perceive two fundamental difficulties with [such a]
reading.... First ... the history of the Clause does not suggest that
the authors contemplated a ‘special’ or ‘institutional’ privilege....
The second fundamental difficulty ... is one of definition. The very
task of including some entities within the ‘institutional press’
while excluding others [is] reminiscent of the abhorred licensing
system [that] the First Amendment was intended to ban. [In my
view] the First Amendment does not ‘belong’ to any definable
category of persons or entities: It belongs to all who exercise its
freedoms.” First National Bank of Boston v. Bellotti, 435 U.S.
765, 797-802 (1978) (Burger, C.J., concurring).

23
It is for the people to decide not only what to say, but
also whether to say anything at all, including stating
the names and addresses of the writer, the publisher,
or the distributor. As Justice Thomas observed in
McIntyre v. Ohio Elections Comm.:
[W]hen viewed in light of the Framers’
universal practice of publishing anonymous
articles and pamphlets, [the historical record]
indicates that the Framers shared the belief
that such activity was firmly part of the
freedom of the press. It is only an innovation
of modern times that has permitted the
regulation of anonymous speech. [Id., 514 U.S.
334, 367 (1995) (Thomas, J., concurring).]
IV. THE COURT OF APPEALS DISREGARDED
THE THREAT OF RETALIATION BY
GOVERNMENT OFFICIALS.
To defeat California’s disclosure demands, the
Ninth Circuit required plaintiffs to prove the existence
of “‘a substantial threat of harassment.’” AFPF at
1012. The Ninth Circuit did acknowledge that such a
threat could come from “either Government officials or
private parties.’” Id.; see also id. at 1015. But the
court never addressed that risk.15

15

In their opinion concurring in the denial of rehearing en banc,
the three judges who served on the panel deciding the case
acknowledged that they did not consider threats from government
to the donors of the petitioners: “To determine the actual burden
on First Amendment rights, we looked at two questions: (1) the
likelihood that the plaintiffs’ Schedule B contributors would face

24
Both petitions raised retaliation and harassment
issues, not just by the public, but also by government
officials. Thomas More’s petition explains why the
burden of proving the lack of any threat of retaliation
by government should be on the government:
It is presumed that citizens’ beliefs and
affiliations are generally no concern of the
state. Overcoming this presumption should
not be easy because officials may use such
information to penalize views they
dislike. And to say there is a blanket
compelling interest in donor disclosure flips
the First Amendment on its head, establishing
a default rule of disclosure rather than one of
confidentiality....
[D]isclosure rules allow officials and
persons who accidentally or maliciously gain
access to donors’ identities to expose and
penalize their views — serious ills that
freedom of association prevents.
Because our society has never been more
vehemently polarized, fear of reprisal
threatens to dry up funds to the point that
some viewpoints cannot survive. [Thomas
More Pet. at 16, 18, 19 (citations omitted)
(emphasis added).]

threats, harassment or reprisals if their Schedule B information
were made public and (2) the likelihood that the information
would become public.” AFPF v. Becerra, 919 F.3d 1177, 1191-92
(2019).

25
The AFPF Petition cited an ominous warning in a
brief filed by amicus NAACP Legal Defense and
Education Fund which the Ninth Circuit disregarded:
By collecting and aggregating confidential
information about an organization’s donors or
members, the government creates a loaded
gun that a future administrat[ion] might
decide to fire. [Cited in AFPF Pet. at 23.]
The NAACP brief describes exactly the type of future
government retaliation that could not readily be
proven, but which is perceived to present a very real
risk to nonprofits and their largest donors. Moreover,
political officeholders can contrive high-sounding
reasons to gather intelligence on the giving patterns of
their wealthy adversaries, and if the request for the
largest donors is allowed, the scope of disclosure can be
expected to grow.16 As the threat of retaliation from
government officials is inherently difficult to prove,
with government law enforcement decision-making
cloaked in secrecy and privilege, such claims are better
addressed in a facial challenge than an as-applied
challenge, but the Ninth Circuit rejected a facial
challenge because of a prior precedent. AFPF at 1006.
The threat of state retaliation is real, and it is
growing, as officeholders and advocacy organizations
increasingly contend, particularly in California and
16

As one commentator notes, “there is no guarantee that such
disclosure policies (whether codified or not) will not change in the
future....” “Court Reaffirms CA Attorney General’s Demand for
Donor List,” Seyfarth Shaw, LLP (Jan. 13, 2016).

26
New York — the only two states that currently enforce
a requirement for an organization to file an unredacted
Schedule B.
Former New York Attorney General Eric
Schneiderman held what can only be called a radical
view of governmental power over nonprofits, viewing
them as little more than arms of the state — bestowed
by government with tax-exempt status and some with
public funding. This view leads to the belief that their
boards of trustees are not really in charge of their
organizations, but merely operate under the
supervisory control of the State acting through the
Attorney General.17
Former California Attorney General Kamala
Harris, who implemented the new requirement, was
elected a U.S. Senator, and now is campaigning for the
Democratic Party nomination for President.
California’s current Attorney General Xavier Becerra
— formerly a member of Congress — has revealed his
partisan political agenda by filing over 50 lawsuits
against the Trump Administration since his
appointment and election.18

17

F.A. Monti, “What Kind of Watchdog? The Role of the State
Attorney General in Nonprofit Oversight,” Inside Philanthropy
(July 28, 2015).
18

See J. Wick, “Newsletter: The state of California vs. Trump,
again,” Los Angeles Times (Aug. 14, 2019) (“In May, California
filed its 50th lawsuit against the Trump administration....”).

27
State attorneys general are often some of the most
politically ambitious office holders, and the Ninth
Circuit below did not even pause to consider the
possibility, and indeed likelihood, of the threat they
can pose for donors to groups they oppose. Donors are
concerned that their identities will be made public, but
there is just as much concern that politically motivated
individuals holding discretionary law enforcement
power will use donor disclosures to target them for
governmental retribution. This risk has been made
even more real in this country’s growing political
divide, including invasions of privacy, threats, and
actual instances of violence.19
These are not
hypotheticals, but real-life examples of how those
entrusted with access to information can misuse that
confidential information for harmful political purposes.
At the very least, it explains why donors would
reasonably fear the misuse of their contribution
history.
CONCLUSION
For all these reasons, the Petitions for Certiorari
should be granted, with directions to the parties to
address also the following issue:
Whether the California requirement that all
nonprofit organizations disclose to the State

19

A congressional staffer was convicted for posting home
addresses and telephone numbers for five senators of the opposing
party during the Senate’s consideration of a recent Supreme Court
nomination. See J. Gerstein, “Ex-Hassan aide sentenced to 4
years for doxing senators,” Politico (June 19, 2019).

28
the names and addresses of their largest
donors as a precondition to the soliciting of
funds violates this Court’s precedents barring
use of broad prophylactic measures to prevent
charitable solicitation fraud and the First
Amendment anonymity principle.
Respectfully submitted,
JOSEPH W. MILLER
JOSEPH MILLER
LAW OFFICES, LLC
P.O. Box 83440
Fairbanks, AK 99708
Attorney for Amicus Curiae
RLAC
STEPHEN C. BAILEY
CALIFORNIA CONSTITUTIONAL
RIGHTS FOUNDATION
932 D Street, Suite 1
Ramona, CA 92065
*Counsel of Record

HERBERT W. TITUS*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae

September 25, 2019

